No. 19-1328
IN THE SUPREME COURT OF THE UNITED STATES
Department of Justice,

Petitioner,

v.

Committee on the Judiciary of the
United States House of Representatives,

Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
MOTION TO RECALENDAR ARGUMENT

Pursuant to Rule 21.1 of the Rules of this Court, Respondent House Committee

on the Judiciary (Committee) respectfully notifies the Court of several events that may

affect this case, and moves that the upcoming oral argument be removed from the

Court’s December 2020 calendar. In support of this motion, the Committee states as
follows:

1.

This case arises from an application by the Committee filed on July 26,

2019 in the U.S. District Court for the District of Columbia seeking grand-jury

materials pursuant to Federal Rule of Criminal Procedure 6(e)(3)(E)(i) and that

court’s inherent authority to order disclosure. Rule 6(e)(3)(E)(i) authorizes the

disclosure of grand-jury material “preliminarily to or in connection with a judicial

proceeding.” Here, the Committee sought the grand-jury material preliminarily to a

potential impeachment trial of President Donald J. Trump. The district court granted

the Committee’s application in part, and the D.C. Circuit affirmed, holding that a

Senate impeachment trial is a “judicial proceeding” under Rule 6(e)(3)(E)(i). This

Court granted certiorari on July 2, 2020. The case was fully briefed as of November
13, 2020, and is currently set for oral argument on December 2, 2020.
2.

Since the Committee filed its brief, the Presidential election has been

held and Joseph R. Biden, Jr. has been projected to receive more than a sufficient
number of the electoral votes needed to be elected as the 46th President of the
United States.
3.

The Committee’s investigations into misconduct by President Trump,

oversight of agency activities during the Trump Administration, and consideration of
related legislative reforms have remained ongoing. But a new Congress will convene
in the first week of January 2021, and President-elect Biden will be inaugurated on

January 20, 2021. Once those events occur, the newly constituted Committee will
have to determine whether it wishes to continue pursuing the application for the
grand-jury materials that gave rise to this case.
4.

Under the circumstances, the Committee respectfully requests that the

Court remove this case from the December 2020 argument calendar. The Committee

believes that postponing oral argument would be in the interest of the parties and the
Court and may conserve judicial resources.
5.

Counsel for the Committee has consulted with counsel for petitioner,

who stated that the Solicitor General intends to file a response to this motion.
Respectfully submitted,

Annie L. Owens
Joshua A. Geltzer
Mary B. McCord
INSTITUTE FOR
CONSTITUTIONAL ADVOCACY
AND PROTECTION
GEORGETOWN UNIVERSITY
LAW CENTER
600 New Jersey Ave., NW
Washington, DC 20001
Jeffrey L. Fisher
Brian H. Fletcher
Pamela S. Karlan
STANFORD LAW SCHOOL
SUPREME COURT
LITIGATION CLINIC
559 Nathan Abbott Way
Stanford, CA 94305
November 17, 2020

Douglas N. Letter
General Counsel
Counsel of Record
Todd B. Tatelman
Megan Barbero
Josephine Morse
Jonathan B. Schwartz
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Building
Washington, DC 20515
(202) 225-9700
douglas.letter@mail.house.gov

